No. ____
In the

Supreme Court of the United States
__________________
CHS-GLENWELL INC., ET AL.,
Petitioners,
v.
OHIO DEPARTMENT OF MEDICAID,
Respondent.
__________________
On Petition for Writ of Certiorari
to the Supreme Court of Ohio

__________________
PETITION FOR A WRIT OF CERTIORARI
__________________
GEOFFREY E. WEBSTER
Counsel of Record
WEBSTER & ASSOCIATES CO., LPA
17 South High Street, Suite 770
Columbus, Ohio 43215
614.461.1156
gewebster@gewebster.com
Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
Ohio’s Medicaid agency, in an administrative hearing,
erroneously interpreted an inapplicable federal
regulation. On appeal the common pleas court rejected
the erroneous interpretation. The appellate court gave
deference to the agency’s interpretation, rejected the
lower court’s interpretation and reinstated the agency’s
misapplication of the federal rule. The Questions
presented are:
1. Is a state Medicaid agency entitled to deference
in judicial review of the agency’s interpretation
of an unambiguous, inapplicable federal
Medicare regulation?
2. Is due process denied when a federal regulation
is construed and applied by a state agency
extending the federal regulation’s application
beyond the adopting federal agency’s
construction and application of the rule unless
the state agency has adopted as a rule its
interpretation prior to application of the change
to those affected?

ii
PARTIES TO THE PROCEEDING
Petitioners are CHS-Glenwell, Inc, CHS-Ohio
Valley, Inc., CHS-Miami Valley, Inc., CHS-Greater
Cincinnati, Inc., and CHS-Lake Erie, Inc. (collectively
“CHS”). Respondent is the Ohio Department of
Medicaid (at the time of the audits at issue the state
Medicaid agency was named the Ohio Department of
Job and Family Services, both collectively referred to as
“ODM.”).
STATEMENT OF RELATED PROCEEDINGS
There are no proceedings in state or federal trial or
appellate courts, or in this Court, directly related to
this case within the meaning of this Court’s Rule
14.1(b)(iii).
CORPORATE DISCLOSURE STATEMENT
Petitioners are each Ohio proprietary corporations
owned by Foundations Health, LLC, a privately-held
Ohio limited liability company with no parent company
and no corporate ownership by any publicly traded
company.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
FEDERAL REGULATIONS INVOLVED . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
A. Rate setting methods for inpatient Medicare
and Medicaid services . . . . . . . . . . . . . . . . . . . 2
B. CHS audits by ODM’s auditors and the
administrative hearing . . . . . . . . . . . . . . . . . . 3
C. Appeal to and decision of the Franklin
County Common Pleas Court and Court of
Appeals decision . . . . . . . . . . . . . . . . . . . . . . . 5
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. 42 C.F.R. 431.100 Cannot apply to a
prospective system of reimbursement . . . . . . 8
B. Use of only part of the Liquidation of
Liabilities Rule Renders the “Rule” as
applied absurd . . . . . . . . . . . . . . . . . . . . . . . . . 9

iv
C. The Tenth District did not apply the Chevron
standard . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
D. ODM has no special expertise in application
of Medicare retrospective reimbursement
rules . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
E. ODM violates due process in adopting a new
interpretation of a Medicare rule and
retroactively applying the new interpretation
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
F. Ohio’s judiciary has violated Petitioners’ due
process rights in its undefined deference to
administrative agencies . . . . . . . . . . . . . . . . 24
G. Several states have abandoned the deference
standard . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
REASONS FOR GRANTING THE PETITION . . . 33
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

v
PETITION APPENDIX TABLE OF CONTENTS
Appendix A Entry in the Supreme Court of Ohio
(February 16, 2021) . . . . . . . . . . . App. 1
Appendix B Memorandum Decision in the Court of
Appeals of Ohio Tenth Appellate District
(October 22, 2020) . . . . . . . . . . . . . App. 2
Appendix C Decision and Order in the Court of
Common Pleas of Franklin County,
Ohio Civil Division
(April 21, 2020) . . . . . . . . . . . . . . App. 22
Appendix D Decision in the Court of Appeals of
Ohio Tenth Appellate District
(February 13, 2020) . . . . . . . . . . App. 27
Appendix E Decision and Entry Affirming, in part,
and Reversing, in part, the Order of
Appellee Ohio Department of
Medicaid and Notice of Final
Appealable Order in the Court of
Common Pleas, Franklin County, Ohio
Civil Division
(November 27, 2018) . . . . . . . . . . App. 96
Appendix F Adjudication Order in the Ohio
Department of Medicaid
(October 3, 2016) . . . . . . . . . . . . App. 113
Appendix G Report and Recommendation in the
Ohio Department of Medicaid
(October 31, 2015) . . . . . . . . . . . App. 285

vi
TABLE OF AUTHORITIES
CASES
Abington Mem. Hosp, v. Burwell,
216 F.Supp.3d 110 (D.CD.C. 2016) . . . . . . . . . . 6
Amisub (PSL), Inc. v. St. of Colorado Dept. of Social
Services, 879 F.2d 789 (10th Cir. 1989) . . . . . . . 11
Arth Brass & Aluminum Castings, Inc. v. Conrad,
104 Ohio St.3d 547 (2004) . . . . . . . . . . . . . . . . . 27
Auer v. Robbins,
519 U.S. 452 (1997). . . . . . . . . . . 15, 17, 23, 24, 33
Axon Enterprises, Inc. v. Federal Trade
Commission, __F.3d__, 9th Cir.,
No. 20-15662 (January 28, 2021) . . . . . . . . . . . . 17
Bldg. Trades Employers’ Educ. Ass’n v. McGowan,
311 F.3d 501 (2d Cir. 2002) . . . . . . . . . . . . . . . . 13
Charvat v. Dispatch Consumer Serv., Inc.,
95 Ohio St.3d 505 (2002) . . . . . . . . . . . . . . . . . . 25
Chevron USA v. Natural Resources Defense Council,
Inc., 467 U.S. 837 (1984) . . . . . . . . . . . . . . passim
Christensen v. Harris County,
529 U.S. 576 (2000). . . . . . . . . . . . . . . . . . . . . . . 23
Christopher v. SmithKline Beecham Corp.,
567 U.S. 142 (2012). . . . . . . . . . . . . . . . . . . . . . . 23
City of Bangor v. Citizens Communications Co.,
532 F 3d. 70 (1st Cir. 2008) . . . . . . . . . . . . . . . . 14

vii
Delcon Partners LLC v. Wyoming Dept. of Revenue,
450 P.3d 682 (2019) . . . . . . . . . . . . . . . . . . . . . . 32
Douglas v. Ad Astra Information Systems. LLC,
296 Kan. 552 (2013) . . . . . . . . . . . . . . . . . . . . . . 31
Ellis-Hall Consultants v. Public Service Commission
of Utah, 379 P.3d 1270 (2016) . . . . . . . . . . . . . . 32
Gun Owners of America, Inc. v. Garland,
6th Cir. No. 9-1928, __WL__ (March 25, 2021)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28, 29, 34
Gutierrez-Brizuela v. Lynch,
834 F.3d 1142 (10th Cir. 2016). . . . . . . . . . . . . . 20
Hughes General Contractors, Inc. v. Utah Labor
Commission, 322 P.3d 712 (2014) . . . . . . . . . . . 32
Idaho v. Couer d’Alene Tribe of Idaho,
521 U.DS. 261 (1997) . . . . . . . . . . . . . . . . . . . . . . 7
Idaho Dep’t of Health & Welfare v. U.S. Dep’t of
Energy, 959 F.2d 149 (9th Cir. 1992) . . . . . . 13, 14
In re Complaint of Royas Against SBC Michigan,
482 Mich. 90 (2008). . . . . . . . . . . . . . . . . . . . . . . 30
In re Murchison,
349 U.S. 133, 75 S.Ct. 623,
99 L.Ed. 942 (1955) . . . . . . . . . . . . . . . . . . . . . . . 29
King v. Mississippi Military Department,
245 So.3d 404 (2018) . . . . . . . . . . . . . . . . . . . . . . 32
Kisor v. Wilkie,
139 S.Ct. 2400 (1019) . . . . . . . . . . . . . . . 15, 16, 17

viii
Myers v. Yamato Kogyo Company, Ltd.,
2020 Ark. 135 (Ark. 2020) . . . . . . . . . . . . . . 32, 33
National Cable Telecommunications Ass’n v. Brand
X Internet Services, 125 S. Ct. 2668 (2005) . . . . 12
Native Village of Point Hope v. Jewell,
740 F.3d 489 (9th Cir. 2014). . . . . . . . . . . . . . . . 17
Northwestern Ohio Bldg. & Constr, Trades Council
v. Conrad, 92 Ohio St.3d 282 (Ohio 2001) . . . . . 25
Pension Benefit Guaranty Corporation v. LTV
Corporation, 110 U.S. 633 (1990) . . . . . . . . . . . . 18
Perez v. Mortg. Bankers Ass’n,
135 S. Ct. 1199 (2015). . . . . . . . . . . . . . . . . . . . . 23
Smith v. Med. Bd. of Ohio,
10th Dist, Case No. 11AP-1005,
2012-Ohio-2472 (2012) . . . . . . . . . . . . . . . . . 27, 28
State ex rel. Celebrezzze v. Natl. Lime & Stone Co.,
68 Ohio St. 3d 377 (Ohio 1994) . . . . . . . . . . 24, 25
State ex rel. McCann v. Delaware County Bd.
of Elections, 155 Ohio St.3d 14 (Ohio 2018) . . . . . . 25
State. Emp. Relations Bd. v. Miami Univ.,
71 Ohio St.3d 351, 643 N.E. 2d (1994). . . . . . . . 25
Stinson v. United States,
508 U.S. 36 (1993). . . . . . . . . . . . . . . . . . . . . . . . 25
Sun City Home Owners Association v. Arizona
Corporation Commission, 460 P3d 283 (2020) . . . 30

ix
Talk Am. Inc. v. Mich. Bell Tel. Co.,
131 S. Ct. 2254 (2011). . . . . . . . . . . . . . . . . . . . . 20
Tetra Tech EC, Inc. v. Wisconsin Dept. of Revenue,
382 Wis.2d 496 (2018) . . . . . . . . . . . . . . . . . 29, 30
Yahama Corp. of America v. State Board of
Equalization, 78 Ca. Rpts.2d 1 (1998) . . . . . . . . 33
CONSTITUTIONS
Fla. Const. art. V . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Ohio Const. art. II, § 1 . . . . . . . . . . . . . . . . . . . . . . . 14
STATUTES
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
A.R.S. Stat. §12-910 . . . . . . . . . . . . . . . . . . . . . . . . . 30
Wisc. Stat. §227.10(2)(g) . . . . . . . . . . . . . . . . . . . . . 30
CODES AND REGULATIONS
42 C.F.R. 413.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
42 C.F.R. 413.1(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
42 C.F.R. 413.100 . . . . . . . . . . . . . . . . . . 1, 4, 8, 19, 23
42 C.F.R. 413.100(b). . . . . . . . . . . . . . . . . . . . . . . . . 23
42 C.F.R. 413.5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
42 C.F.R. 413.5(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 23
42 C.F.R. 413.5(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . 11
51 Fed. Reg. 34793 (September 30,1986) . . . . . . . . 13

x
60 Fed. Reg. No. 123 . . . . . . . . . . . . . . . . . . . . . 12, 19
63 Fed. Reg. No.147 (July 31, 1998) . . . . . . . . . . . . 13
67 Fed. Reg. No. 148 (August 1, 2002) . . . . . . . . . . 13
73 Fed. Reg. No. 193 (October 3, 2008) . . . . . . . . . . 13
O.A.C. § 5101:3-1-17.1 . . . . . . . . . . . . . . . . . . . . . . . 21
O.A.C. §5101:3-3-01(A). . . . . . . . . . . . . . . . . . . . . . . 20
O.R.C. §5111.27(B) . . . . . . . . . . . . . . . . . . . . . . . . . . 20
R.C. §119.01(C). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
R.C. §119.03 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
R.C. §5111.27(B)(1)-(8). . . . . . . . . . . . . . . . . . . . . . . 10
R.C. §5165.01(B). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
R.C. §5165.01(MM). . . . . . . . . . . . . . . . . . . . . . . . . . . 5
OTHER AUTHORITIES
https://duckduckgo.com/?t=ffab&q=quasi+defined&
atb=v198-1&ia=definition . . . . . . . . . . . . . . . . . . 8
J. Turley, Professor, George Washington Univ,
Washington Post, May 24, 2013:
https://www.washingtonpost.com/opinions/therise-of-the-fourth-branch-of-government/2013/
05/24/c7faaad0-c2ed-11e2-9fe2-6ee52d0eb7c
1_story.html . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Walker, Lawmaking Within Federal Agencies and
Without Judicial Review, Journal of Land Use &
Environmental Law, 2017 . . . . . . . . . . . . . . 26, 27

xi
Christopher J. Walker, Attacking Auer and
Chevron Deference: A Literature Review, 16
Geo.J.L. & Pub. Policy 103 (2018) . . . . . . . . . . . 21

1
OPINIONS BELOW
ODM’s appointed hearing examiner on October 31,
2015, issued a Report and Recommendation (“Report”
App. 285) finding all issues for ODM. ODM issued an
adjudication order October 3, 2016 accepting the
hearing examiner’s Report (App. 113). Appeal was
taken by CHS to the Franklin County Common Pleas
Court on October 14, 2016. The Common Pleas Court
on October 30, 2018 issued a Decision and Entry (“CPC
Decision” App. 96) affirming in part and reversing in
part ODM’s Adjudication Order. On November 26, 2018
ODM appealed to the Tenth District Court of Appeals.
CHS filed a notice of cross-appeal November 27, 2018.
The Tenth District Court of Appeals issued a decision
February 13, 2020, sustaining ODM’s assignment of
error and overruling CHS’s assignments of error (App.
27). CHS requested reconsideration, denied on October
22, 2020 (App. 2). Notice of Appeal to the Supreme
Court of Ohio was filed December 14, 2020. By entry
filed February 16, 2021 the Supreme Court of Ohio
declined to accept jurisdiction (App. 1).
JURISDICTION
The Supreme Court of Ohio declined to accept
jurisdiction February 16, 2021. (02/16/2021 Case
Announcements, 2021-Ohio-375) App. 1. This Court has
jurisdiction under 28 U.S.C. § 1257(a).
FEDERAL REGULATIONS INVOLVED
42 C.F.R. §413.100

2
STATEMENT OF THE CASE
Petitioners “CHS” are part of a group of commonly
owned affiliated companies, engaged in the business of
delivering long term health care services to occupants
of CHS’s nursing homes (24 total affiliated Ohio
facilities for the period at issue); the costs of residents’
care are reimbursed by Medicaid, Medicare and other
payers. Services are delivered through a combination
of employees and contracted goods and services from
independent commercial enterprises.
A. Rate setting methods for inpatient
Medicare and Medicaid services.
The cost of services’ delivered and other operating
costs are reported to Medicare and state Medicaid
agencies on “cost reports,” filed annually. Medicaid cost
reports are used to set rates for defined future periods,
after “desk audit” review by ODM. Rates are generally
the rate for one day’s services to a resident. Cost
reports filed with ODM are audited by private
contractors and the final results are used to reduce the
rate paid in the period the cost report was used to set
the rate if the cost report had unallowable,
unreasonable, or other costs excluded.
Medicare and Medicaid have reimbursed hospitals
and nursing homes under two general types of systems:
(1) retrospective: where cost reports for the payment
period are audited, compared to the rates paid, and
payments adjusted up or down, assuring reasonable
costs are reimbursed and non-allowable costs are
removed. Medicare and Medicaid consider retrospective
system payments during the rate payment period to be

3
“interim” payments. 42 C.F.R. 413.1(a); and
(2) prospective: where rates are set on a prior period’s
reported cost, adjusted for anticipated inflation, and
paid without adjustment for actual costs in the rate
paid period. If the rate setting cost report included
unallowable costs payments made in the rate period
are adjusted down. The payer recoups the improper
amount paid. In addition, prospective rates are never
adjusted to exceed the rate paid (contrary to a
retrospective system). Ohio had a “retrospective”
reimbursement system before the period at issue
(calendar 2003 cost report for rates paid in subsequent
state fiscal years). (App. 106).
B. CHS audits by ODM’s auditors and the
administrative hearing.
CHS filed cost reports for the annual period ending
December 31, 2003. The rate paid in 2003 was
calculated from 2001 filed cost reports. The 2003 cost
report was used to set rates for 2004, and 2005.
Included in Petitioners’ cost reports were payments to
two independent vendors of $12,000,000.00 for services,
paid by issuance of long-term promissory notes that
were timely and fully paid.
All twenty-four Carington Healthcare Systems’
facilities had contracts with these two vendors. Each
facility had a common Master Agreement, each Master
Agreement had a separate Services and Rate
Addendum delineating facility specific services and
charges for those services. The rates varied between
facilities based on the specific services contracted. Only
Petitioner CHS facilities had a disallowance proposed
by ODM’s contracted auditor for these contracted

4
payments claiming a related party was present and
inadequate documentation failed to support the costs
reported. Medicare made no disallowance of these
contracted services.
CHS timely requested administrative hearings. The
first part of the hearing process commenced October 5,
2009; the second phase commenced December 10, 2012.
After initial document exchange ODM agreed there
was no related party present and adequate
documentation supported the costs on the seven1 cost
reports filed, removing the disallowances. Hearing
proceeded on other issues and after more than a year
elapsed ODM resurrected the disallowance of these
contract costs on a new reason - application of a
selected part of the federal Medicare retrospective
system’s Liquidation of Liabilities Rule (42 C.F.R.
413.100), reinstating the disallowance for the
Petitioners CHS facilities’ costs. This had no effect on
the other 17 CHS facilities’ audits or rates whose
contracts costs were not disallowed by ODM’s auditors.
In its novel approach to resurrect its disallowance,
ODM chose to take a part of the federal rule (the part
that disallows costs of a short-term liability not
liquidated within a year of the filing of the cost report
reporting the cost), apply it to the now re-contested
costs while ignoring the part that requires
reimbursement of the cost in the year in which the

1

There were 7 audit reports of 5 corporate entities, two of which
had corporate mergers in 2003 which ODM treated as separate
entities for audit purposes.

5
provider does liquidate the costs. The costs were fully
and timely liquidated by CHS.
ODM stipulated the cost of the 2003 contracts were
reasonable and otherwise allowable Medicaid costs,
thus only the selective application of part of a federal
rule allowed ODM to recoup the prospective rate funds
expended for Medicaid patient care seven years prior.
See R.C.§5165.01(B), and (MM) defining the terms
“reasonable” and “allowable costs.”
CHS presented in the administrative hearing expert
testimony from John Hapchuk, a recently retired
Senior Executive Service, Department of Health and
Human Services (“HHS”) accountant, instrumental in
developing Medicare’s Liquidation of Liabilities Rule.
For 40 years he was the head of HHS’s bureau charged
with interpreting all federal Medicare audit rules and
standards nationally to assure uniform application. He
was recognized as an expert and was adamant “…the
Liquidation of Liabilities Rule does not apply to the
facts…” in this matter.
Following administrative hearing, before a hearing
examiner who has never in her long career ruled
against ODM in any provider hearings, ODM issued in
its favor an adjudication order, timely appealed to the
common pleas court.
C. Appeal to and decision of the Franklin
County Common Pleas Court and Court of
Appeals decision.
That court found the adjudication order was not in
accordance with law and vacated it. (App. 96, “CPC
Decision”) The CPC Decision found Medicare’s

6
retrospective rate Liquidation of Liabilities Rule cannot
be applied in a prospective rate system, the notes were
long term liabilities, and the Liquidation Rule had no
application to long term debts. The CPC Decision relied
on federal authorities (Abington Mem. Hosp, v.
Burwell, 216 F.Supp.3d 110, 122 (D.D.C. 2016), “The
1995 Final Rule was…explicitly made inapplicable to
inpatient care that was subject to the [prospective
payment system] scheme.” (citations omitted)) and
John Hapchuk’s expert report and opinion in its ruling.
The Court of Appeals ruling on a question of law
(App. 27) found the common pleas court abused its
discretion, approved the use of the Liquidation Rule as
“applicable to Ohio Medicaid cost reports,” and
reinstated the adjudication order. The Court of Appeals
never considered the restrictive language of Medicare’s
application of the Liquidation Rule to only a
retrospective reimbursement system, deferring to
ODM’s construction of the federal rule, sidestepped the
Abington ruling on a fact basis, deferred to the
testimony of ODM’s witnesses citing the “special
expertise” of administrative agencies. The appellate
court never addressed ODM’s inability to apply all of
the Liquidation Rule, or the retroactivity of this new
interpretation. Reconsideration was requested and en
banc hearing, both denied on October 26, 2020. The
Supreme Court of Ohio declined review.
ARGUMENT
“It is a principal concern of the court system in any
State to define and maintain a proper balance between
the State’s courts on one hand, and its officials and
administrative agencies on the other. This is of vital

7
concern to States.” Idaho v. Couer d’Alene Tribe of
Idaho, 521, U.DS. 261, 276 (1997). Ohio’s courts have
failed its citizens and accords excessive deference to
administrative agencies even with no ambiguity
present.
Most citizens sole encounter with a state’s judicial
system is not in a court any longer, but the “quasijudicial” administrative hearing, where few, if any,
rules govern evidence, hearsay abounds, and the
agency controls the hearing examiner (by payment and
rules of procedure). The agency is the legislature,
prosecutor, and judge.
A Washington Post op-ed states2:
The rise of the fourth branch has been at the
expense of Congress’s lawmaking authority. In
fact, the vast majority of ‘laws’ governing the
United States are not passed by Congress but
are issued as regulations, crafted largely by
thousands of unnamed, unreachable
bureaucrats. One study found that in 2007,
Congress enacted 138 public laws, while federal
agencies finalized 2,926 rules, including 61
major regulations.

2

J. Turley, Professor, George Washington Univ, Washington Post,
May 24, 2013: https://www.washingtonpost.com/opinions/the-riseof-the-fourth-branch-of-government/2013/05/24/c7faaad0-c2ed11e2-9fe2-6ee52d0eb7c1_story.html (“Our carefully constructed
system of checks and balances is being negated by the rise of a
fourth branch, an administrative state of sprawling departments
and agencies that govern with increasing autonomy and decreasing
transparency.”)

8
Administrative agencies judicial powers are often
called “quasi-judicial,” but “quasi” is a term candidly
defined as “generally implying that what it qualifies is
in some degree fictitious or unreal.”3 Given how this
action progressed this definition is fitting.
A. 42 C.F.R. 431.100 Cannot apply to a
prospective system of reimbursement.
The Liquidation of Liabilities Rule in a retrospective
system is a deferral of payment, but when only part of
the rule is applied in a prospective system it is a denial
of payment, contrary to the rule’s explicit intent and
application.
ODM chose to read it differently this time, and for
just Petitioners. Other audited CHS facilities reporting
the same reasonable costs, paid in the same manner, to
the same venders had no audit disallowance. The
evidence showed other CHS facilities’ ODM auditors
examined the same Master contracts. Two expert
CPA’s testified, without rebuttal, the Liquidation of
Liabilities Rule had never before been applied in this
manner in Ohio.
ODM changed the reason for disallowance of the
costs of contracted services by selecting only the part of
the Medicare Liquidation Rule beneficial to ODM
(ignoring its restrictive application to only retrospective
reimbursement systems) and disallowed the cost of the
contracted services, while stipulating the costs were
reasonable, actual, and necessary costs. The CPC

3

(https://duckduckgo.com/?t=ffab&q=quasi+defined&atb=v1981&ia=definition).

9
Decision saw through ODM’s scheme, but the Tenth
District deferred to ODM, making no effort to
determine whether ambiguity was present or whether
ODM was properly entitled to deference.
B. Use of only part of the Liquidation of
Liabilities Rule Renders the “Rule” as
applied absurd.
The Liquidation of Liabilities Rule, adopted June
27, 1995, was inserted into a longstanding set of
regulations governing Medicare’s retrospective
reimbursement system. As such it is to be read as part
of the mechanism used to meet the objectives of 42
C.F.R. Part 413 Subpart F and not to conflict with its
companion rules.
The “General Rules” (42 C.F.R. 413.1) governing
retrospective reimbursement, establish why Medicare
limited its Liquidation of Liabilities Rule to a
retrospective reimbursement system. The goal was to
reimburse reasonable allowable costs while preventing
the reporting of costs used to set an interim rate
(exclusively in a retrospective rate system) and
excluding costs accrued and reported but never paid.
All cost reports use an accrual basis (booked when
the expense is incurred) as opposed to a cash basis
(booked when the expense is paid). Medicare thus
required short term liabilities to be liquidated within
a defined time to remain allowable on the cost report
used to set the interim rate. If that did not happen
Medicare would disallow the expense from the interim
rate and lower the rate paid.

10
But that did not end the ability of a provider to pay
the costs and later recoup the expense. This latter
provision does not, and cannot, happen in a prospective
rate system, where the rate allowed is never adjusted
to account for costs accrued or paid in the period the
prospective rate is paid to providers. The Liquidation
of Liabilities Rule expressly allows a provider to
include on a later cost report an untimely paid
allowable cost accrued and reported in an earlier period
and receive Medicare payment for its share of the
allowable cost paid late, a prospective system does not
allow such subsequent reporting.
The reason this is allowed in a retrospective
reimbursement system is explained in the “Cost
reimbursement: General” section of the retrospective
reimbursement rules (42 C.F.R. 413.5): Reimbursement
is to be “fair and equitable” such that “[a]ll necessary
and proper expenses…are recognized.” (Id. at (a)); No
part of the Medicare share of costs is to be “borne by
other patients.” (Id.); Current payments should be
sufficient so that a provider does not have to “put up
money for the purchase of goods and services well
before they receive reimbursement.” (Id. at (b)(1)); and
“in addition to current payment, there should be
retroactive adjustment so that increases in costs are
taken fully into account as they actually occurred, not
just prospectively.” (Id. at (b)(2)).
The phrase above, “not just prospectively,” is as
telling as the Ohio legislative directive to ODM that
the “hierarchy of rules” (R.C.5111.27(B)(1)-(8)) used
must be “applicable” rules. In a Medicare prospective
rate system to pay the expense in a later period to have

11
it put in the rate would be an extended deferral of
reimbursement the language of 42 C.F.R. 413.5(b)(1)
requires be prevented; hence HHS recognized what the
expert testimony of Hapchuk and Cummins stated, and
the Common Pleas Judge recognized, the Liquidation
of Liabilities Rule cannot be applied in a prospective
rate system.
Since Medicare stated expressly the subsequent
payment of an untimely liquidated expenses will be
reimbursed by Medicare, and under ODM’s prospective
rate system these costs are never paid, the appeals
court’s deference to use the piece of the federal rule
ODM likes creates an absurd result, preventing
reimbursement of reasonable costs.
C. The Tenth District did not apply the
Chevron standard.
The deference granted does not meet the Chevron
USA v. Natural Resources Defense Council, Inc., 467
U.S. 837 (1984), standard and exceeds any reasonable
application of this Court’s deference standard. In
addition, the Court of Appeals decision gave complete
deference to ODM in its interpretation of federal
Medicare law in spite of federal authority such
deference was not due a state Medicaid agency.
Amisub (PSL), Inc. v. St. of Colorado Dept. of Social
Services, 879 F.2d 789, 795-6 (10th Cir. 1989) holds a
state Medicaid agency is not entitled to deference in
the interpretation of federal Medicare law.
An egregious due process denial result is achieved
by the judiciary’s unwillingness to conduct a proper

12
appellate review allowing ODM to “put its thumb on
the scale.”
Chevron requires a 3-part test before the application
of deference (also National Cable Telecommunications
Ass’n v. Brand X Internet Services, 125 S. Ct. 2668
(2005)): deference is given if the rule is within the
agency’s jurisdiction, the rule is ambiguous, and the
construction is reasonable. 467 U.S. at 843-844, and n.
11, 865-866.”) Id. at 969.
The court of appeals did no analysis of Chevron’s
three-part test of ODM’s partial application of the
federal Liquidation of Liabilities Rule. The facts are:
(1) ODM does not administer the Medicare Program,
the U.S. Dept. of Health and Human Services does;
(2) There is no ambiguity present. The federal rule at
issue is contained in 42 C.F.R. Part 413, Subpart F,
which explicitly applies only to retrospective
reimbursement. Prospective reimbursement of skilled
nursing facilities is a completely different area of
federal rules, 42 C.F.R Part 431, Subpart J. The rule
is not “applicable,” Ohio was a prospective
reimbursement system in the period at issue; and
(3) ODM’s construction is unreasonable and
retroactively applied.
When the Liquidation of Liabilities Rule was first
adopted the federal agency’s opening sentences under
“Background” state: “This policy pertains to all services
furnished by providers other than…skilled nursing
facilities choosing to be paid on a prospective payment
basis;” (60 Fed. Reg. No. 123, pg. 33126), “the cost can
be claimed in the cost reporting period when the
liquidation of the liability occurs, that is, when an

13
actual expenditure takes place,…” (Id, at 33131); it also
has no application to long term liabilities (as the CHS
notes paid were found to be by the CPC Decision). (Id.)
When HHS publishes rules regarding inpatient
services reimbursement it readily demonstrates it
understands the distinction between retrospective and
prospective systems. HHS makes the distinction clearly
when it published rules by stating which
reimbursement system the new rule has application.
For prospective system changes see: 73 Fed. Reg. No.
193, 57888 (October 3, 2008), 67 Fed. Reg. No. 148,
49982 (August 1, 2002), 63 Fed. Reg. No. 147, 40954
(July 31, 1998); for retrospective system changes, 51
Fed. Reg. 34793 (September 30,1986).
Clearly Medicare never intended to use the
Liquidation of Liabilities Rule as a club to deny
payment for stipulated allowable costs. The retroactive
partial application of the federal rule is contrary to the
explicit intent and application of the rule when adopted
and as thereafter applied by Medicare. Due process
was denied.
D. ODM has no special expertise in
application of Medicare retrospective
reimbursement rules.
“Federal courts generally defer to a state agency’s
interpretation of those statutes it is charged with
enforcing, but not to its interpretation of federal
statutes it is not charged with enforcing. Bldg. Trades
Employers’ Educ. Ass’n v. McGowan, 311 F.3d 501, 507
(2d Cir.2002) ; see also Idaho Dep’t of Health & Welfare
v. U.S. Dep’t of Energy, 959 F.2d 149, 152 (9th

14
Cir.1992).” City of Bangor v. Citizens Communications
Co., 532 F 3d. 70, 94 (1st Cir. 2008).
ODM has a view of its powers extending beyond any
reasonable authority to supplant with regulations
enacted statutes. In practice ODM holds Ohio’s
legislature in some disdain; for example, in recent
discovery by a Medicaid provider an ODM Director’s
email was produced outlining recommendations of
ODM staff “…to change the statutes and cost report
instructions in order to align with the department’s
intentions.” Ohio’s executive branch has lost sight of
the first three words of the Ohio Constitution, Art. II,
§1, “The legislative power of the state shall be vested in
a general assembly.”
Here the Tenth District deferred to ODM’s staff
construction of an unambiguous federal rule without
considering if such was reasonable, let alone
retroactive. (App. 59).
ODM interprets statutes consistent with its desires
and directions, not with any regard to legislative
intent. The same email string referenced above
contains an email from the Governor’s Office stating
‘”[L]egislators wanted and the Administration agreed
to work to create a rate add-on for critical access
nursing homes…This is the right thing to
do….However, because it would be an increase in
spending on [Nursing Facilities], something the
Governor has said he does not want to do, we need to
discuss.” It is not over- reach to see Ohio’s executive
branch feels it controls Ohio’s legislature, and since it
gets deference from a court reviewing its rules’
application it will win far more times than it loses.

15
Small wonder then ODM has doggedly pursued
Petitioner CHS to recoup monies, to the point of
butchering an inapplicable federal regulation to fit it
into a system where only part of the rule is applied –
the part that benefits ODM.
If this Court’s Chevron standard permits this
chicanery it needs review and modification. What is not
present here are the “genuinely ambiguous regulations”
that the Auer deference permits. Kisor v. Wilkie, 139
S. Ct. 2400 (2019). Nor is there present a “reasonable
agency reading” and in point every “especially
important markers” for Auer deference is lacking;
consider the manner this interpretation came about it was an ad hoc decision in the midst of administrative
hearing, not an “authoritative or official position”
(Kisor, infra). Rather this is the essence of the
“convenient litigating position…[and] a new
interpretation that creates ‘unfair surprise’ to
regulated parties” this Court voiced its disapproval in
Kisor.
In Kisor this Court declined to reverse the
Chevron/Auer judicially created doctrine of deference
for the stated reason that Kisor’s arguments were
based on the position the doctrine was “wrong or poorly
reasoned,” the Circuit Court “jumped the gun in
declaring the VA’s regulation ambiguous” before using
its interpretative tools. Kisor notes the reason agencies
get Auer deference - the “agency that ‘wrote the
regulation’ will often have direct insight into what the
rule was intended to mean.” (Kisor at 2413).
Here the head of the federal agency that wrote the
rule testified and his testimony was ignored by the

16
Court of Appeals. If there were “genuine ambiguity”
(“And when we use that term we mean it” Kisor at
2415) present in this action why would the Court of
Appeals ignore the testimony of Hapchuk? Kisor notes
the obligation of courts “to perform their reviewing and
restraining function.” After all, “Want to know what a
rule means? Ask its author.” (Kisor at 2413.)
The Court of Appeals incanted “deference” and
stopped further review, permitting a convenient
litigating position to take back millions of dollars by
creating a court sanctioned rule bypassing the
statutory rule adoption process. This new “rule” was
never before applied and never since applied to any
other provider.
When Kisor refers to the “mixed messages we have
sent” about deference, Petitioners experienced what
this Court meant. This is not the sort of “hard
interpretative conundrum” the Court noted could still
be solved; after all Hapchuk was clear and the Federal
Register equally clear, the Liquidation of Liabilities
Rule does not apply to a prospective rate system.
ODM’s reading does not fall “within the bounds of
reasonable interpretation” (Kisor at 2417). “And let
there be no mistake. That is a requirement the agency
can fail.” (Id.)
ODM failed and the Court of Appeals failed as well
for there was no making of “authoritative policy in the
relevant context” (Id.) here, the Liquidation of
Liabilities Rule’s application came about because the
original reasons for the disallowance of the two
contracts costs evaporated when the facts came out in
hearing. ODM has no administrative expertise in

17
auditing nursing homes cost reports, ODM contracts
with private companies and has for four decades and no
ODM contracted auditor disallowed these specific costs,
or ever before applied this rule in this way.
Last Kisor requires “an agency’s reading of a rule
must reflect ‘fair and considered judgment’ to receive
Auer deference.” (Kisor at 2418). “We have…only rarely
given Auer deference to an agency construction
‘conflicting with a prior’ one.” (Id. at 2419) ODM had
previously (when using a retrospective reimbursement
system) adopted part of the Liquidation of Liabilities
Rule into its audit manual and never before announced
an intention to apply the rule to a prospective system.
Central to the deference standard’s rationale is the
“expertise” of an administrative agencies’ personnel.
But is the perception correct? “Agency expertise” is part
of the mantra listed to support a court confining its
inquiry and/or deflecting non-government expert
testimony. Casemaker™ research of Circuit Court
decisions reveal the term “agency expertise” is used
1,737 times. It is a central component of the “thumb on
the scale” the judiciary gives the executive branch.
Agency expertise was considered a factor “cloaked in
ambiguity” in Axon Enterprises, Inc. v. Federal Trade
Commission, __F.3d__, 9th Cir., No. 20-15662, January
28, 2021. An agency determination must be reversed if
“so implausible that it could not be ascribed to a
difference in view or the product of agency expertise.”
Native Village of Point Hope v. Jewell, 740 F.3d 489
(9th Cir. 2014). This Court held an agency’s decision
within its area of authority need not consider issues
that derive from statute’s other than the agency’s

18
enabling act in Pension Benefit Guaranty Corporation
v. LTV Corporation, 110 U.S. 633, 645 (1990);
eliminating the concept of in pari materia for an
administrative agency and further assuring agency
dominance over citizens who must live and work under
all rules and laws.
When one must follow all the laws it is easy to
violate a regulatory bodies rules when the regulations
can be interpreted and applied without regard to other
laws. Here the CPC Decision found the long-term
promissory notes given in payment were not subject to
the Liquidation of Liabilities Rule and were fully and
timely paid in accord with their terms, construing and
applying Ohio’s Uniform Commercial Code. Once the
Court of Appeals gave deference it gave total deference
including deference to ODM’s reading of the UCC as
well.
ODM contracted CPA’s from the community to
conduct the audits at issue, there was no in-house
expertise applied. Three expert CPA’s testified for CHS
in the administrative hearing. Bert Cummins, CPA, for
39 years focused exclusively on Medicare/Medicaid
nursing facilities financial records, auditing, and cost
reporting; the firms he was part of were retained by
ODM’s predecessor to perform Medicaid cost report
audits and assist in administrative hearings, and
Cummins was the principal chief auditor for over 400
of Ohio’s Medicaid cost report audits. John Fleisher,
CPA, testified as an expert based on his career as a
nursing facility accountant similar to Cummins and
involved with a “couple thousand” Medicaid audits and
audit settlements. Having “expertise” in writing and

19
enforcing rules gives no expertise in how businesses
operate. Both business and bureaucracies have an
equal interest in use and knowledge of the
interpretation and application of regulations. Cummins
was a General Assembly appointee to the legislative
committee formed to write the statutes to establish and
monitor Ohio’s nursing facility reimbursement system.
Why is a civil servant to receive deference over equally
or more experienced professionals?
John Hapchuk gave expert testimony as a recently
retired Senior Executive Service, Department of Health
and Human Services (“HHS”) accountant instrumental
in developing Medicare’s Liquidation Rule. Integrally
involved in crafting the Liquidation of Liabilities Rule
he was quite direct in his testimony. Not only is the
result the Department desires inequitable, and
contrary to the intention of the law, the Department’s
application of Section 42 C.F.R. 413.100 is incorrect.
Mr. Hapchuk’s testimony is supported by the
Federal Register. When HHS adopted the Liquidation
Rule the opening sentences under “Background” state:
“This policy pertains to all services furnished by
providers other than…skilled nursing facilities
choosing to be paid on a prospective payment basis.” 60
Fed. Reg. No. 123, pg. 33126 (underline added); the cost
can be claimed in the cost reporting period when the
liquidation of the liability occurs, that is, when an
actual expenditure takes place.” (Id. at 33131). Yet the
Court of Appeals ignored his agency expertise and the
federal agency’s statement of the application of the
Medicare Liquidation of Liability Rule.

20
Justice Scalia said it well: “It seems contrary to
fundamental principles of separation of powers to
permit the person who promulgates a law to interpret
it as well.” Talk Am. Inc. v. Mich. Bell Tel. Co., 131 S.
Ct. 2254, 2265-66 (Scalia, J., Concurring (citations
omitted).
If our Founders thought deference wise the power to
do so would have been excluded from judicial powers
and interpretative power vested in the executive
branch. Having just dealt with King George III it is
unlikely the Founders would ever have considered
placing such power in the executive branch. Yet here
we are. What is present here is the “all to easy
intrusions on the liberty of the people.” GutierrezBrizuela v. Lynch, 834 F.3d 1142, 1151 (Justice, then
Judge, Gorsuch, concurring).
Ohio’s legislature, at O.R.C. §5111.27(B), had since
1980 and prior (while on a retrospective
reimbursement system) specified audits had to
“(1) comply with applicable rules prescribed
pursuant to titles XVIII and XIX; (2) consider generally
accepted auditing standards….” ODM adopted in 1980
O.A.C. 5101:3-3-01(A) defining “Allowable costs”
“…determined in accordance with the following
reference material, as currently issued and updated, in
the following priority: (1) Title 42 Code of Federal
Regulations (C.F.R.) Chapter IV; (2) The provider
reimbursement manual (“health care financing
administration HCFA Publication 15-1,”); or
(3) Generally accepted accounting principles.”
(Emphasis added) The Ohio legislature’s requirement
the Medicare rules must be “applicable” has been

21
ignored by ODM and the Court of Appeals. Medicare’s
retrospective rules have no application to the Medicaid
prospective reimbursement system and HHS said so.
The common pleas court in reviewing the entire
record saw through the disingenuous action of
interpreting the Liquidation of Liabilities Rule into a
prospective rate system which the federal agency
adopting the rule refused to permit to be applied to
Medicare’s prospective rate system. The Court of
Appeals, in obedience to its view of the deference
standard, substituted its judgment, reinstated ODM’s
interpretation, and the Supreme Court of Ohio refused
to correct the error. This action personifies the perverse
“incentive to draft vague regulations and interpret
those regulations through less-formal means after the
fact.”4
E. ODM violates due process in adopting a
new interpretation of a Medicare rule and
r e t r o a c t i v e l y a p p l y i n g t h e n ew
interpretation.
At the lower court level CHS objected to ODM’s
violation of due process in creating a new rule for
Medicaid in the same hearing it first applied the new
rule. Without rebuttal CHS provided testimony ODM
was applying the Liquidation of Liabilities Rule in a
manner it has never been applied prior to this case and
9 years after the expenses were incurred and reported
to ODM. ODM was obligated by O.A.C. § 5101:3-1-17.1
“[b]efore the effective date of the final adoption,
4

Christopher J. Walker, Attacking Auer and Chevron Deference:
A Literature Review, 16 Geo.J.L. & Pub. Policy 103, 106 (2018).

22
amendment or rescission of a rule in division 5101:3 of
the Administrative Code, the [ODM] shall make a
reasonable effort to notify persons affected by the rule
adoption, amendment or rescission. ‘Reasonable effort
to notify persons’ means posting the full text of a new
or amended rule on the ODJFS website.” ODM never
posted notice it was adopting and incorporating the
Liquidation of Liabilities Rule to Medicaid cost reports
in a prospective rate period.
The Ohio Revised Code defines a “rule” as “any rule,
regulation, or standard, having a general and uniform
operation, adopted, promulgated, and enforced by any
agency under the authority of the laws governing such
agency, and includes any appendix to a rule.” R.C.
§119.01(C). The Department’s application of the
Liquidation of Liabilities Rule was newly adopted in
the underlying hearing and is intended, presumably, to
have a uniform and general application; thus, to
implement this new position uniformly and generally
applied is solely through application of R.C. 119.03’s
rule adoption process and prospectively applying it.
ODM cannot adopt a rule by securing deference from a
complicit court.
Long before this controversy began, before the
contracts at issue were written and when Ohio was on
a retrospective reimbursement system, ODM placed in
its audit manual a single, specific, and restricted use of
the Liquidation of Liabilities rule: a provider must
liquidate a compensation obligation to an owneradministrator within 75 days of close of the costreporting period or it would be disallowed on audit.
ODM intentionally included a single provision,

23
referencing only owner-administrator compensation,
though the Medicare Liquidation of Liabilities Rule
includes an array of other areas of application (vacation
pay, paid time off, sick pay, deferred compensation,
self-insurance plans, and benefit plans, and short-term
liabilities). See 42 C.F.R. 413.100(b). In doing so ODM
placed Ohio Medicaid providers on notice that this
single incorporated provision would be applied to
audits of cost reports. Providers, then, were on notice
those costs must be incurred, paid, and reported in a
manner consistent with those standards to prevent
disallowance or non-reimbursement.
“[D]eference is not appropriate if the interpretation
is clearly erroneous.” Perez v. Mortg. Bankers Ass’n,
135 S. Ct. 1199 at 1215, citing Christensen v. Harris
County, 529 U.S. 576, 588 (2000). In Christensen, this
Court rejected the request for deference as an effort
“under the guise of interpreting a regulation, to create
de facto a new regulation.” Id. In this case, ODM is
applying 42 C.F.R. § 413.100 to the 2003 Medicaid
prospective cost-based system, even though the
regulation specifically states the cost reimbursement
“is to be made on the basis of current costs of the
individual provider, rather than costs of a past period
or a fixed negotiated rate.” 42 C.F.R. §413.5(a). In
other words, in a retrospective, not prospective,
system. This is clearly erroneous and serves as the
basis for this Court to refuse to grant deference to the
Department’s interpretation.” (CHS Merit Brief pg.567) The Tenth District improperly deferred to ODM.
The case Christopher v. SmithKline Beecham Corp.,
567 U.S. 142 (2012), turned on the application of Auer

24
v. Robbins, 519 U.S. 452 (1997) and holds: “Deference
is undoubtedly inappropriate,…when it appears that
the interpretation is nothing more than a “ convenient
litigating position’” Id. at 155 (citations omitted).
ODM’s actions clearly point to the “convenient
litigating position”, first presented in an administrative
hearing it controlled and years after Petitioners
negotiated the contracts, received and paid for
performance, and reported the costs to ODM.
The “unfair surprise” (Id. at 156) and lack of
“‘adequacy of notice to regulated parties’ as a factor
relevant to the reasonableness of the agency’s
interpretation” (Id. citations omitted) is certainly
present in this action. CHS had no reason to suspect
ODM would, mid-hearing and having stipulated the
costs at issue were reasonable, actual, necessary and
otherwise allowable, come up with such a twisted
reading of inapplicable law and force fit it into this
administrative hearing. The court of appeals’ decision
to reverse the lower court is nothing more than
acceding to ODM’s demand for deference, denying
Petitioners’ due process.
F. Ohio’s judiciary has violated Petitioners’
due process rights in its undefined
deference to administrative agencies.
Ohio’s courts accord more than just deference and
say so clearly. The Supreme Court of Ohio states it
accords “considerable deference to an agency’s
interpretation of rules the agency is required to
administer.” State ex rel. Celebrezzze v. Natl. Lime &
Stone Co., 68 Ohio St. 3d 377, 382 (citations omitted).
To the Secretary of State “…this court typically gives

25
‘great deference’.” State ex rel. McCann v. Delaware
County Bd. of Elections. 155 Ohio St.3d 14, ¶20. Citing
Stinson v. United States (1993) 508 U.S. 36, 44-45, the
Ohio Supreme Court provides “an agency’s commentary
regarding its own rules is due even greater deference
than the court gives rules in Chevron.” Charvat v.
Dispatch Consumer Serv., Inc., 95 Ohio St.3d 505, ¶35.
So long as a state agency does not ignore express terms
of enabling legislation any interpretation the agency
says is reasonable will receive deference from an Ohio
court. See, Northwestern Ohio Bldg. & Constr, Trades
Council v. Conrad, 92 Ohio St.3d 282.
In Ohio the State Employment Relations Board
(“SERB”) heard a dispute between a labor union and
Miami University. Previously a petition for
decertification of the union had been submitted to SERB
which SERB dismissed. Shortly after unfair labor
practice charges were filed before SERB. In the judicial
appeal process the Court of Appeals found SERB’s
decision was “a break from” prior SERB decisions and
was “fundamentally inconsistent with the statutory
framework” of SERB’s enabling legislation. State. Emp.
Relations Bd. v. Miami Univ., 71 Ohio St.3d 351, 352,
643 N.E. 2d 1113 (1994). Reversing the court of appeals
the Supreme Court of Ohio held:
In assessing SERB’s policy, this court must
afford deference to SERB’s interpretation of R.C.
Chapter 4117. Lorain City School Dist. Bd. of
Edn. v. State Emp. Relations Bd. (1988), 40 Ohio
St.3d 257, 533 N.E.2d 264, paragraph two of the
syllabus. The General Assembly has entrusted
SERB with the responsibility of administering

26
the statute,[sic] and has bestowed upon it the
special function of applying the statute’s
provisions to the complexities of Ohio’s industrial
life. In so doing, it has delegated to SERB the
authority to make certain policy decisions. Id. at
353.
This is frank acknowledgment bureaucrats in a
government office are far more capable than a judge in
interpreting statute to address the “complexities of
Ohio’s industrial life.” This is the equivalent of Pilate
washing his hands; a court surrendering up its duty to
the people that empower all three branches, all three of
whom are to serve not another branch but the people.
One doubts Oliver W. Holmes could even imagine
penning so damning a sentence as quoted above.
Deference has become abdication.
Christopher J. Walker, Assoc. Prof. of Law. Michael
E. Moritz College of Law, Ohio State University,
published an essay5 which in part reviewed every
published Circuit Court opinion from 2003 through 2013
wherein Chevron deference was referenced. The agency
“won 77.4 percent of the time when courts applied the
Chevron framework and 93.8 percent of the time when
courts found the statute ambiguous and thus assessed
the agency’s interpretation for reasonableness.” (Id. pg.
554) In a survey of agency rule writers in 9 federal
agencies found 90% of agencies’ drafters utilize the
“Chevron space” when drafting. (Id. 555). “The agency

5

Walker, Lawmaking Within Federal Agencies and Without
Judicial Review, Journal of Land Use & Environmental Law,
Vol.32 pgs. 551-565, 2017

27
rule drafters surveyed appreciated that if a statutory
provision is ambiguous, the agency -not the courts – will
be the primary interpreter of the statute….” (Id. pg.
556). The paper concludes this section noting agency
drafters, knowing they are “insulated from searching
judicial review,” regulate “more aggressively” when they
are inside Chevron space. (Id. pg. 557). Since courts do
not review how agencies participate in confidential
assistance to Congressional staffers in writing
legislation, “courts do not assess whether agencies selfdelegate lawmaking authority by leaving statutory
mandates broad and ambiguous….” (Id. pg.557). This
practice coupled with courts’ deference leaves the People
out in the cold.
When a court does not go along with the deference
agencies demand the dissents speak in terms that
prove deference really means “don’t question the
Fourth Estate,” consider: “These are matters in which
deference to the bureau’s discretionary authority is
paramount and judicial intervention is cautiously
restricted to the most flagrant transgressions of
administrative power.” Arth Brass & Aluminum
Castings, Inc. v. Conrad, 104 Ohio St.3d 547, ¶56. If
the real standard is the “Most Flagrant” standard, it
was met here where the act of “theft by interpretation
of rule” was given a judicial nod of approval.
The Court of Appeals showed how smooth the route
a state agency has in court: “Considerable deference
should be accorded to an agency’s interpretation of
rules the agency is required to administrator.” Smith v.
Med. Bd. of Ohio, 10th Dist, Case No. 11AP-1005, 2012Ohio-2472, ¶11. In effect it seems since the agencies

28
are empowered to write its rules of process and
procedure, bring charges for non-adherence to the
rules, prosecute violations before an agency “hearing
officer” bound by paycheck and process to the agency,
and courts defer to it all. The purpose of a right of
appeal is mere lip service to the Constitutional rights
of due process. An empty promise to a citizen.
G. Several states have
deference standard.

abandoned

the

Federal courts are bound to channel decisions
within the boundaries of Chevron. States have taken a
lead role in criticism of deference and several refuse to
yield judicial power to the executive branch and
administrative agencies.
The recent opinion in Gun Owners of America, Inc.
v. Garland, 6th Cir. No. 9-1928, __WL__, March 25,
2021, while a criminal case noting the inapplicability of
Chevron deference (Opinion pg. 9), it nonetheless
discusses at length, the scope, and breadth of
deference. Garland considers Chevron to have been an
unintentional “tectonic shift” in administrative law
which “means that an agency’s construction is
paramount to even a prior judicial construction, thus
an agency may effectively overrule court precedent,”
(Id., pg. 10, emphasis in original). Agencies should not
have the power to overrule judicially established
precedent. Agencies are not Congress and quasilegislative power is not co-equal to legislative power.
Garland (pg. 14, citations omitted) notes the rule of
lenity, “the practical opposite of Chevron deference,”
applies to a rule with both civil and criminal penalties.

29
When Petitioners stand to lose tens of millions it is as
devastating as a criminal charge and may well be a
corporate death sentence. Garland (pg. 16, citations
omitted) notes “‘How is it fair in a court of justice for
judges to defer to one of the litigants?...Such deference
is found nowhere in the Constitution – the document to
which judges take an oath.’”
Florida settled the issue conclusively. In the
November 2018 election Florida’s citizens amended
Article V of the Constitution of the State of Florida to
add Section 21: “In interpreting a state statute or rule,
a state court or an officer hearing an administrative
action pursuant to general law may not defer to an
administrative agency’s interpretation of such statute
or rule, and must instead interpret such statute or rule
de novo.”
The Wisconsin Supreme Court Opinion Tetra Tech
EC, Inc. v. Wisconsin Dept. of Revenue, 382 Wis.2d 496
(2018) expansively examines the breadth and range of
deference, its pros and cons, concluding, “Core powers,
however, are not for sharing.” (Id. at ¶47), stating “As
to these areas of authority, ... any exercise of authority
by another branch of government is unconstitutional.”
(Id. at ¶48, citations omitted). Their concern was just
the concern in this appeal: “The United States Supreme
Court says that a “fair trial in a fair tribunal is a basic
requirement of due process.” In re Murchison, 349 U.S.
133, 136, 75 S.Ct. 623, 99 L.Ed. 942 (1955).” (Id. ¶64).
On the heels of the Tetra Tech ruling the Wisconsin
legislature made the abandonment of deference to its
executive branch agencies statutory. (Wisc. Stat.
§227.10(2)(g) “No agency may seek deference in any

30
proceeding based on the agency’s interpretation of any
law.”).
In 2020 the Court of Appeals of Arizona, First
Division issued an opinion addressing wastewater rate
setting appeals. Sun City Home Owners Association v.
Arizona Corporation Commission, 460 P3d 283 (2020).
The opinion found it had no authority to set aside the
rate setting decision as it was “bound by the decisions
of our supreme court” and “where [the state agency] is
given exclusive power it is supreme.” Id. at ¶13. The
dissent addressed the “excessive deference” noting
“judicial review is meaningless if reviewing courts
merely ‘rubberstamp’ Commission decisions” without a
court’s determination of the agency’s compliance with
constitutional and statutory duties.” Id. at ¶48.
In 2021, Arizona codified a “no deference” standard.
(A.R.S. §12-910 “In a proceeding brought by or against
the regulated party, the court shall decide all questions
of law, including the interpretation of a constitutional
or statutory provision or a rule adopted by an agency,
without deference to any previous determination that
may have been made on the question by the agency.”).
Michigan’s Supreme Court analyzed the judicial use
of the deference standard in In re Complaint of Royas
Against SBC Michigan, 482 Mich. 90 (2008). The Court
referenced Marbury v. Madison, noting one defining
aspect of judicial power is interpreting the law (Id. at
98). The Court acknowledged use of the term
“deference” by the Michigan Supreme Court had
“unmistakably added to the confusion” over the
deference standard in implying “the judiciary must
accede to the agency’s interpretation of a statute.” (Id.

31
at 107) In a statement remarkedly parallel to this
appeal (where the lower court’s interpretation of
statute was cast aside as inferior to ODM’s tortured
construction of the federal regulation), the Michigan
Supreme Court stated: “Given that statutory
construction is the domain of the judiciary, it is hard to
imagine why a different branch’s interpretation would
be entitled to more weight than a lower court’s
interpretation.” (Id. at 108).
Here just that happened, even when the former
head of the federal agency (Hapchuk) strenuously
asserted in testimony ODM’s use and construction of
the Liquidation of Liabilities Rule was completely
wrong. The standard of deference is so imprecise as to
have no definition. When deference merely “rubber
stamps” an agency’s retrospective application of a new
interpretation of a federal regulation Petitioners’ due
process rights are denied.
How many times a day does a court in the United
States give agency deference to similarly accede to the
agency and remove from its docket one case, leaving
the citizen to know only there was nothing fair about
the judicial proceeding; it is just a bump in the road of
administrative agency dominance of the judicial
branch.
The Kansas Supreme Court abandoned the
deference doctrine in 2013. Douglas v. Ad Astra
Information Systems. LLC, 296 Kan. 552 (2013)
(deference “has been abandoned, abrogated, disallowed,
disapproved, ousted, overruled, and permanently
relegated to the history books where it will never again
affect the outcome of an appeal.” Id. at 559).

32
Utah is no less direct in rejection of the Chevron
deference standard: “In fact our caselaw has openly
repudiated that approach. *** So we have retained for
the courts the de novo prerogative of interpreting the
law, unencumbered by any standard of agency
deference.” Hughes General Contractors, Inc. v. Utah
Labor Commission, 322 P.3d 712, ¶25 (2014); see also,
Ellis-Hall Consultants v. Public Service Commission of
Utah, 379 P.3d 1270 (2016) (“We reiterate that agency
decisions premised on pure questions of law are subject
to non-deferential review for correctness.” Id. at ¶27).
Mississippi’s Supreme Court noted its
inconsistency in the application of deference, concluded
a standard of deferential review violated the separation
of powers in the state’s constitution and ended
deference. King v. Mississippi Military Department,
245 So.3d 404 (2018) (“we announce today that we
abandon the old standard of review giving deference to
agency interpretations of statutes. Our
pronouncements describing the level of deference were
vague and contradictory, such that the deference could
be anywhere on a spectrum from “great” to illusory.
Moreover, in deciding no longer to give deference to
agency interpretations, we step fully into the role the
Constitution of 1890 provides for the courts and the
courts alone, to interpret statutes.” Id. at ¶12).
Wyoming (Delcon Partners LLC v. Wyoming Dept. of
Revenue, 450 P.3d 682 (2019)) and Arkansas (Myers v.
Yamato Kogyo Company, Ltd., 2020 Ark. 135) both
acknowledged the confusion caused by inconsistent
application of deference and separation of powers and
abandoned the deference standard. California reserves

33
the “ultimate interpretation of [a statute] is an exercise
of the judicial power…conferred upon the courts by the
Constitution and, in the absence of a constitutional
provision, cannot be exercised by any other body.”
Yahama Corp. of America v. State Board of
Equalization, 78 Ca. Rpts.2d 1, 7 (1998) (also, “Because
an interpretation is an agency’s legal opinion, however
‘expert,’ rather than the exercise of a delegated
legislative power to make law, it commands a
commensurably lesser degree of judicial deference.” Id
at11).
REASONS FOR GRANTING THE PETITION
The conflict presented is not one between the
federal circuit courts. The conflict is between this
Court’s Chevron/Auer standard and state courts which
either adopt their interpretation of Chevron (in a
muddled, ad hoc fashion as Ohio’s case law
demonstrates) and those states which find Chevron to
violate the Constitution’s separation of powers
doctrine.
This Court, as the creator of Chevron/Auer
deference, is the only and best place for there to be a
uniform standard for the interpretation and application
of federal administrative regulations by any court.
Chevron/Auer as commonly interpreted and applied
violates the separation of powers doctrine. Here a
court’s “exhaustive review of the record and relevant
law, including examining the thousands of pages of
exhibits and reading the hearing transcripts in its
entirety” (App. 97, emphasis in original) was
meaningless as the Court of Appeals, using state
decisional progeny of Chevron, gave deference to

34
ODM’s interpretation of a clearly inapplicable federal
rule, and permitted the interpretation to be
retroactively applied. (App. 59).
On July 2, 2021, this Court accepted the Petition
filed in American Hospital Association v. Xavier
Becerra, Secretary of Health and Human Services, et
al., Case No. 20-1114. The question presented is
parallel to this Petition’s questions: the limits of
Chevron deference when an agency acts outside
legislative channels and, as in this appeal, found to
have been exceeded by the lower court, but reversed on
appeal by appellate deference to the government
agency.
Garland (at pg. 21, citations omitted) states:
“Indeed, ‘we judges are experts on one thing –
interpreting the law.’” Except that is no longer true for
the vast majority of laws, since regulations far exceed
statutes is number, scope and reach. Congress allows
agency staff to “assist” in writing the laws, then writes
the rules perhaps to fill in what Congress was
unwilling or hesitant to do. Ceding judicial power to
the Fourth Estate denies due process.
CONCLUSION
It is respectfully requested this Court accept this
appeal to state whether a state agency is entitled to
deference in the interpretation of federal regulations it
does not enforce, and if so the parameters of this
judicially created standard. A court denies due process
to a citizen when it permits a state agency to select
piecemeal parts of a federal rule in order to extract
payments made that were otherwise reasonable and

35
allowable costs; costs which the federal rule would not
otherwise permit to be denied reimbursement. The
retroactive application of a new interpretation of a midhearing rule is further a due process denial.
Respectfully submitted:
GEOFFREY E. WEBSTER
Counsel of Record
WEBSTER & ASSOCIATES CO., LPA
17 South High Street, Suite 770
Columbus, Ohio 43215
614.461.1156
gewebster@gewebster.com
Counsel for Petitioners

